July 17, 2008

JOANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

SUBJECT: Audit Report – Detroit, Michigan Processing and Distribution Center
         Consolidation (Report Number EN-AR-08-005)

This report presents the results of our audit of the Detroit, Michigan Area Mail
Processing (AMP)1 proposal (Project Number 08XG001EN000). Our objectives were to
determine if the AMP proposal was accurate and supported and if the proposed AMP
and Decision Analysis Report (DAR)2 support the Postal Service’s network streamlining
efforts by reducing cost, increasing operational effectiveness, and improving service.
The U.S. Postal Service requested the audit and we conducted it in cooperation with
Postal Service officials. Click here to go to Appendix A for additional information about
this audit.

Conclusion

The Detroit AMP proposal was generally accurate and supported, reduced costs, and
increased operational effectiveness. However, we identified a significant overstatement
in proposed annual savings, decreasing the total annual savings from $4.2 million to
$1.2 million. We will report $3,060,158 of non-monetary impact (data integrity—
reliability of information) in our Semiannual Report to Congress. Management generally
complied with the processes outlined in Handbook PO-408.3 In addition, we identified
issues in the Detroit AMP proposal with a potential service downgrade, the stakeholder
communication process, legislative restrictions, and potential risk factors. Several
factors contributed to these discrepancies including overly optimistic cost-saving
projections, unclear AMP policy, and inadequate management oversight. Accurate and
complete AMP data and a rigorous review process are important for supporting
management decisions, ensuring management accountability, and strengthening
stakeholder confidence in the consolidation process.


1
  The consolidation of all originating and/or destinating distribution operations from one or more Post Offices/facilities
into other automated processing facilities for the purpose of improving operational efficiency and/or service.
2
  A document the requesting organization prepares to recommend an investment; it defines the problem and details
the need for the expenditure. A DAR is required for field investments that exceed the threshold; minimum
requirements greater than $5 million require headquarters approval.
3
  Management prepared the Detroit AMP proposal using Handbook PO-408, Area Mail Processing Guidelines, dated
April 1995, which provided a framework for consolidating operations in the mail processing network.

         This report has not yet been reviewed for release under FOIA or the Privacy
         Act. Distribution should be limited to those within the Postal Service with a
         need to know.
Detroit, Michigan Processing and Distribution                                          EN-AR-08-005
 Center Consolidation



We did not audit the Northeast Metro Michigan DAR, dated August 20, 2005.4 As part
of our AMP audit, we accepted workhour reductions noted in the DAR to establish the
Detroit AMP baseline. Click here to go to Appendix B for additional information about
the DAR.

Savings Misstatements

We identified an approximately $3.1 million misstatement in proposed annual savings,
decreasing the total annual savings from $4.3 million to $1.2 million. Discrepancies
occurred in costs associated with workhours, executive and administrative schedule
(EAS) personnel, transportation, and one-time associated costs. Figure 1 summarizes
these discrepancies. Click here or go to Appendix C for more details.
                         Figure 1: Summary of Adjusted Total Annual Savings

                                                                 U.S. Postal
                                                              Service Office of
                                                             Inspector General
                                          AMP (Cost) /              (OIG)            Revised (Cost)
           Savings Category                Savings              Adjustments            / Savings
           Workhours                        $5,848,554             ($2,879,902)          $2,968,652
           EAS Personnel                        326,378                (159,650)             166,728
           Transportation                   (2,157,671)                 (20,606)         (2,178,277)
           Annual Associated                    277,285                        0             277,285
           Total Annual Savings             $4,294,546             ($3,060,158)          $1,234,388

           One-Time Associated
           Savings                             ($433,670)               $678,393            $244,723

       Annual Workhours – Management overstated workhour savings by
        approximately $2.9 million, reducing annual workhour savings from $5.8 million
        to approximately $3.0 million.5 This occurred primarily because management
        benchmarked using a Saturday mail processing study that resulted in overly
        optimistic workhour savings. See the Workhours section of Appendix C for more
        details.

       EAS Personnel – Management overstated EAS savings by approximately
        $160,000 by understating two EAS personnel as a result of the workhour
        discrepancies. Additionally, management used the number of employees
        “authorized” instead of “on-rolls” to calculate EAS staffing requirements and


4
  In January 2007, the Northeast Metro Processing and Distribution Center (P&DC) facility was renamed the Michigan
Metroplex P&DC.
5
  The $3 million savings includes workhour reductions claimed in the Northeast Metro DAR. We did not validate or
confirm the accuracy of DAR projections.



                                                        2
Detroit, Michigan Processing and Distribution                                       EN-AR-08-005
 Center Consolidation


        savings estimates.6 This occurred because there was unclear guidance in effect
        when management prepared the AMP. See the EAS Personnel section of
        Appendix C for more details.

       Transportation – Highway Contract Route (HCR) transportation costs did not
        include the required annual fuel cost, which, according to management, was a
        preparation oversight. Additionally, management understated Postal Vehicle
        Service (PVS) transportation costs by $20,606 because they used the rate per
        hour instead of the rate per mile, and the rate per hour was unsupported. See
        the Transportation section of Appendix C for more details.

       One-Time Associated Costs – Management understated first year annual
        savings by $678,393 because the AMP proposal did not include savings from
        closing the leased Detroit Annex. See the One-Time Associated Costs section of
        Appendix C for more details.

Other Issues:

       Service – The Service Standard Directory (SSD) identified a potential downgrade
        from 2-day to 3-day in First-Class Mail® (FCM) service standards that was not
        reported in the AMP proposal. See the Service Downgrade section of Appendix
        D for more details.

       Communication Process – Stakeholders expressed concern with the AMP
        communication process. We plan to examine stakeholder communications in a
        subsequent review. See the Communication Process section of Appendix D for
        more details.

       Legislation – The fiscal year (FY) 2008 Omnibus Spending Bill, dated January
        2008, directs the Postal Service to delay the Detroit AMP consolidation until the
        Government Accountability Office (GAO) reports back to the Appropriations
        Committee. This delay has the potential to defer mail processing operation
        efficiency gains and related cost savings. See the Legislative Restrictions
        section of Appendix D for more details.

       Risk Factors – We identified potential risks that management should consider to
        avoid additional costs and delays associated with the consolidation. See
        Appendix E, Risk Factors, for more details.




6
 Revised Handbook PO-408, Area Mail Processing (March 2008), calculates the difference between the “Proposed
Staffing” and “Current On-Rolls” positions on the Staffing – Postal Career Executive Service/EAS worksheet.



                                                      3
Detroit, Michigan Processing and Distribution                       EN-AR-08-005
 Center Consolidation


We recommend the Vice President, Great Lakes Area Operations:

1. Update the Detroit Area Mail Processing proposal to correct issues identified in this
   report, adjust savings/costs as appropriate, and then resubmit the updated proposal
   to headquarters for review and approval.

Management’s Comments

Management agreed with our recommendation and plans to submit an updated AMP
proposal to headquarters using the new PO-408 worksheets by April 30, 2009.
Management also agreed to address issues noted in the EAS Personnel, Transportation
and Service AMP worksheets when submitting the updated AMP. Further,
management confirmed their intent to close the Detroit Annex; however, they consider it
an initiative independent of the AMP study. Additionally, management disagreed with
our workhour finding and the associated $3.1 million savings overstatement. They
stated the OIG assumed there was no absorption factor associated with this AMP and
attributed the majority of the savings discrepancy to this issue. Finally, management
provided clarifying information for various issues in this report. Management’s
comments, in their entirety, are included in Appendix F.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation in the
report. Additionally, management’s planned update to the Detroit AMP proposal using
the new PO-408 worksheets should resolve the issues identified in the report. When
completed, we will assess the updated Detroit AMP proposal.

The OIG agrees the consolidation of processing operations into the Michigan Metroplex
should result in increased productivity; however, Great Lakes management used a
methodology that appeared optimistic. The OIG analysis is more consistent with the
methodology described in the new AMP policy. In addition, to account for productivity
gains at the Metroplex, the OIG adjusted the Detroit AMP baseline to reflect an
efficiency gain of an additional 55,875 workhours. The adjusted calculations resulted
in the OIG attributing an additional $1.1 million in workhour savings to the Detroit AMP
proposal.

Further, management stated, “Independent of the AMP study, the Detroit Annex will be
closed within the next few years.” The new PO-408 requires a disclosure of other cost-
savings initiatives occurring concurrently with the AMP proposal development. Such
disclosures increase transparency for stakeholders during the AMP process and help
provide a better understanding of the source of saving during the post-implementation
review process.

The OIG considers the recommendation significant; therefore, it requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when



                                                4
Detroit, Michigan Processing and Distribution                         EN-AR-08-005
 Center Consolidation


management completes the corrective action. The recommendation should not be
closed in the follow-up tracking system until the OIG provides written confirmation that it
can be closed. In addition, where appropriate we incorporated management’s
suggestions to clarify the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, Director,
Network Optimization, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




for
Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Anthony M. Pajunas
    David E. Williams, Jr.
    Nancy L. Rettinhouse
    Kelly M. Sigmon
    Katherine S. Banks




                                                5
Detroit, Michigan Processing and Distribution                                                           EN-AR-08-005
 Center Consolidation



                                              APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U.S. Postal Service recognized the need to redesign and optimize its processing
and transportation network in response to declining FCM volume, increasing
competition with traditional mail products from the private sector, increasing automation
and mail processing by mailers, and shifting population demographics. The goal of
these evolving optimization efforts is to create a flexible logistics network that reduces
costs, increases operational effectiveness, and improves consistency of service. The
aggregate volume of FCM declined by 6.3 percent (or 6.4 billion pieces) from FYs 2002
to 2007. In addition, the Postal Service projects FCM volume will continue to decline.
Figure 2 shows these trends.

                                                Figure 2: FIRST-CLASS ACTUAL (2002-2007) AND
                                                    PROJECTED (2008-2012) MAIL VOLUME

                          110




                          105




                          100
     Pieces In Billions




                           95




                           90




                           85




                           80
                                2002   2003   2004    2005    2006      2007       2008   2009   2010   2011    2012
                                                                     Fiscal Year


In addition, eCommerce and electronic messaging are slowly replacing personal paper-
based correspondence and will continue to influence single-piece FCM volume. As
FCM volume declines, the total number of mailpieces delivered per address could
decline as well.

The Postal Service defines its strategic objectives in its Transformation Plan,7 which
states the agency is committed to improving its operational efficiency by consolidating

7
    Strategic Transformation Plan, 2006-2010, Annual Progress Report, December 2006.



                                                                           6
Detroit, Michigan Processing and Distribution                                              EN-AR-08-005
 Center Consolidation



mail processing operations when feasible. In addition, the President’s Commission8
found the Postal Service had more facilities than needed and recommended optimizing
the facility network by closing and consolidating unneeded processing centers. The
Postal Accountability and Enhancement Act9 (Postal Act of 2006), signed into law on
December 20, 2006, further encourages the Postal Service to continue streamlining its
processing and distribution network to eliminate excess costs.

The Postal Service revised Handbook PO-408 in March 2008. The previous AMP policy
– which we used as criteria in this audit – was published in 1995. The handbook
provides a framework for consolidating operations in the mail processing network and
performing post-implementation reviews (PIR). These guidelines state consolidations
should improve operational efficiency and/or service, make optimum use of available
resources, and ensure management’s accountability for consolidating operations.

The Postal Service uses the AMP process to consolidate mail processing functions and
to eliminate excess capacity, increase efficiency, and better use resources. The Postal
Service defines AMP as:

           . . . the consolidation of all originating and/or destinating distribution
           operations from one or more Post Offices/facilities into other automated
           processing facilities for the purpose of improving operational efficiency
           and/or service.

The Detroit P&DC in the Detroit District and the Michigan Metroplex P&DC in the
Southeast Michigan District are both in the Great Lakes Area. The AMP proposes to
move originating collection single piece mail volume for two 3-digit ZIP Codes™ (481
and 482) from the Detroit P&DC to the Michigan Metroplex P&DC.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine if the proposed AMP was accurate and supported and
if the proposed AMP and DAR supported the Postal Service’s network streamlining
efforts by reducing cost, increasing operational effectiveness, and improving service.
We interviewed management and reviewed applicable guidelines, including Handbook
PO-408. We did not assess communications with stakeholders or compliance with the
Area Mail Processing Communications Plan in this report. We plan to address noted
communications issues in a subsequent review. We performed trend and cost analyses
of workhours, transportation, mail volume, and productivity for each facility; and
conducted other analytical procedures to determine the potential impacts of the
consolidation.



8
    The President’s Commission on the United States Postal Service reported its findings on July 31, 2003.
9
    Postal Accountability and Enhancement Act, Public Law 109-435, dated December 2006.



                                                            7
Detroit, Michigan Processing and Distribution                                           EN-AR-08-005
 Center Consolidation


We relied on Postal Service data systems, including the Breakthrough Productivity
Initiative website (BPI), the Management Operating Data System (MODS), the Web
Enterprise Information System (WebEIS), and the Enterprise Data Warehouse (EDW) to
analyze workhours, mail volumes, service performance, and service indicators.10 We
reviewed Postal Regulatory Commission filings related to network realignment
initiatives. We also used information from the Transportation Contract Support System
and the Transportation Information Management and Evaluation System to review,
verify, and validate transportation data; the Web Complement Information System to
review employee complement issues; and the SSD to review service implications of the
AMP.

We examined computer data related to planned workhour reductions, transportation
costs, number and types of employee positions affected, and projected service
implications to customers. We did not test the validity of controls over Postal Service
data systems; however, we noted several control weaknesses including missing,
incomplete, and inaccurate data records. Additionally, another OIG audit11 identified
control weaknesses with MODS at the operation code level. To compensate for
identified control weaknesses, we applied alternate audit procedures, including source
document examination, observation, and discussion with responsible officials.

The Michigan Metroplex is a new facility and is not yet operational. As a result,
historical productivity rates are not available for the gaining facility. Therefore, OIG
workhour savings were adjusted to include the workhour reductions noted in the DAR12
as the baseline for potential workhour reductions at the losing facility. We did not
validate or conduct an analysis of the Royal Oak P&DC workhour reductions and
efficiency gains reported in the DAR.

We conducted this performance audit from October 2007 through July 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We did not directly audit
the BPI, MODS, WebEIS, and EDW systems, but performed a limited data integrity
review to support our data reliance. We discussed our observations and conclusions
with management officials on April 21, 2008, and included their comments where
appropriate.




10
   In order to be consistent with data in the AMP proposal, we focused on the same data scope.
11
   Management Operating Data System (Report Number MS-AR-07-003, dated August 6, 2007).
12
   Column adjustments in the Data Collection for DAR, page 48.



                                                        8
    Detroit, Michigan Processing and Distribution                                EN-AR-08-005
     Center Consolidation



    PRIOR AUDIT COVERAGE

    The OIG has issued 11 reports related to AMP guidelines and consolidation initiatives.


                                                                                                           Non-Monetary
                                                    Date Final                                                Impact
                                                     Report                                                    (Data
            Report Name             Report Number    Issued                       Results                    Integrity)
                                                                 The AMP process was fundamentally
                                                                 sound. However, the process could be
                                                                 improved by updating AMP guidance,
     Area Mail Processing                                        processing and approving AMPs
1                                   NO-AR-06-001    12/21/05
     Guidelines                                                  timely, conducting PIRs on all AMPs,
                                                                 and addressing stakeholder resistance.
                                                                 Management agreed with the findings
                                                                 and recommendations.
                                                                 Our analyses provided confirming
                                                                 evidence for the consolidation.
                                                                 However, the process could be
                                                                 improved by complying with policy in
                                                                 the development, approval, and
                                                                 implementation of the AMP proposal.
     Pasadena, California                                        We recommended management revise
2    Processing and Distribution     EN-AR-06-001   09/26/06     the AMP proposal to document all
     Center Consolidation                                        service standard changes and
                                                                 transportation costs; establish central
                                                                 files for approved AMP proposals and
                                                                 supporting documentation to facilitate
                                                                 PIRs; and update AMP policy.
                                                                 Management generally agreed with our
                                                                 recommendations.
                                                                 Our analysis disclosed the Postal
                                                                 Service was justified in moving
                                                                 outgoing mail processing operations.
                                                                 However, we identified weaknesses in
     Bridgeport, Connecticut                                     management controls over the
     Processing and Distribution                                 processing and approval of the AMP
3                                    NO-AR-06-010   09/30/06
     Facility Outgoing Mail                                      proposal. We recommended the
     Consolidation                                               Postal Service maintain supporting
                                                                 documentation and use current data for
                                                                 future AMP proposals. Management
                                                                 generally agreed with our
                                                                 recommendations.




                                                     9
    Detroit, Michigan Processing and Distribution                               EN-AR-08-005
     Center Consolidation




                                                               Our analysis provided confirming
                                                               evidence for the consolidation.
                                                               However, we identified inconsistencies
                                                               in AMP proposal data and inaccuracies
                                                               in the information shared with
                                                               stakeholders. We recommended
                                                               management provide detailed
     Sioux City, Iowa Processing
                                                               instructions for documenting facility and
4    and Distribution Facility       EN-AR-07-001   11/09/06
                                                               employee relocation expense
     Consolidation
                                                               information; revise the AMP to
                                                               accurately document impacts on
                                                               employees, equipment, transportation;
                                                               and communicate updated information
                                                               on the AMP proposal to stakeholders.
                                                               Management agreed with the
                                                               recommendations in this report.
                                                               The Postal Service could improve the
                                                               way it documents service impacts in
                                                               AMP proposals and PIRs. The process
                                                               could be improved if management
                                                               revises AMP policy to include guidance
     Service Implications of Area                              for reporting service standards
5    Mail Processing                 EN-AR-07-002   12/05/06   information; measuring service
     Consolidations                                            performance; and documenting
                                                               potential changes affecting customer
                                                               service, such as collection box pick-up
                                                               times and access to the business mail
                                                               entry unit. Management agreed with
                                                               the recommendations.
                                                               Our analysis provided confirming
                                                               evidence for cost savings, improved
                                                               service performance, and increased
                                                               productivity. However, we identified
     Review of the                                             discrepancies with the AMP proposals,
     Steubenville –Youngstown,                                 the timing of the PIR, and the data
6                                    NO-AR-07-003   03/30/07
     Ohio Outgoing Mail                                        used to support the PIR. We
     Consolidation                                             recommended that management
                                                               update the AMP policy and provide
                                                               training on the revised policy.
                                                               Management agreed with the
                                                               recommendations.




                                                    10
    Detroit, Michigan Processing and Distribution                              EN-AR-08-005
     Center Consolidation




                                                               The Postal Service could improve its
                                                               process for identifying AMP
                                                               consolidation opportunities by
                                                               integrating the benefits of a strategic
                                                               approach (top-down) with the existing
                                                               tactical approach (bottom-up). We
                                                               recommended management revise the
     Area Mail Processing                                      AMP policy, integrate the bottom-up
7                                    EN-MA-07-001   06/26/07
     Initiation Process                                        and top-down approaches to identifying
                                                               consolidation opportunities, and
                                                               validate current consolidation
                                                               opportunities with changes in the
                                                               network realignment strategy, including
                                                               future equipment space needs.
                                                               Management agreed with the
                                                               recommendations
                                                               Our analysis identified confirming
                                                               evidence for the consolidation
                                                               proposal; however, we noted a
                                                               workhour savings overstatement of
                                                               $1.4 million, a slight downgrade in
                                                               Standard Mail® service, and some
                                                               potential risk factors. Management
                                                               corrected the misstatement and
     Bronx, New York
                                                               resubmitted the AMP proposal for
8    Processing and Distribution     EN-AR-07-003   07/18/07                                              $1,443,374
                                                               approval during our audit. We
     Center Consolidation
                                                               recommended management update
                                                               AMP policy to include a more objective
                                                               and supportable method for
                                                               determining workhours and update the
                                                               integrated operating plans for two
                                                               stations to reflect the correct trip-of-
                                                               value. Management agreed with our
                                                               recommendations.
                                                               Our analysis disclosed that
                                                               management could improve the
                                                               support and accuracy of the Marina
                                                               PIRs. We identified significant
                                                               misstatements in workhours,
                                                               transportation, associated costs, data
                                                               retrieval timeframe issues, service
                                                               impacts during the first year after
     Post-Implementation                                       consolidation, and AMP policy
     Reviews of the Marina                                     compliance issues. We recommended
9    Processing and Distribution     EN-AR-07-004   08/14/07   that management correct and resubmit
     Center Area Mail                                          to headquarters the annual PIR; revise
     Processing Consolidation                                  AMP guidelines to include specified
                                                               data retrieval timeframes and other
                                                               cost-saving initiatives under way
                                                               concurrently with the consolidation; and
                                                               establish a rigorous review process at
                                                               the area and headquarters levels to
                                                               identify AMP and PIR errors.
                                                               Management agreed with the
                                                               recommendations.
                                                    11
     Detroit, Michigan Processing and Distribution                              EN-AR-08-005
      Center Consolidation

                                                                The Postal Service’s revisions to AMP
                                                                guidance have resulted in significant
                                                                improvements. Management has
                                                                incorporated 32 prior OIG audit
                                                                recommendations on AMP policy into
      Management Advisory –                                     the revisions. However, additional
10    Automated Area Mail             EN-MA-08-001   10/19/07   enhancements could further improve
      Processing Worksheets                                     AMP guidance with regard to such
                                                                things as workhours, transportation,
                                                                communication, service, performance
                                                                indicators, and supervisory ratios.
                                                                Management agreed with the
                                                                recommendations.
                                                                Our analysis disclosed the Kansas City
                                                                AMP consolidation proposal was
                                                                generally accurate, supported, and
                                                                showed evidence of management
                                                                review. However, we identified an
                                                                overall savings overstatement of $2.4
                                                                million; a mail volume transfer that was
      Kansas City, Kansas
                                                                not documented in the AMP proposal;
11    Processing and Distribution     EN-AR-08-001   01/14/08                                              $2,459,332
                                                                and a slight downgrade in First-Class,
      Center Consolidation
                                                                Priority, and Periodicals mail service.
                                                                We recommended management revise
                                                                the AMP proposal and resubmit it for
                                                                review. Management did not agree
                                                                with one finding on executive staff
                                                                savings; however, they did agree with
                                                                our recommendation.

     A recurring issue in the AMP consolidation audits over the past 3 years has been that the
     AMP consolidation policy, Handbook PO-408, Area Mail Processing Guidelines, needed
     to be updated to help improve accuracy and consistency in the AMP proposals process.
     In March 2008, the Postal Service issued a revised Handbook PO-408 and incorporated
     41 prior OIG audit recommendations on AMP policy into the revisions. The Postal
     Service’s revisions to AMP guidance should result in significant improvements in the AMP
     proposal process.




                                                     12
Detroit, Michigan Processing and Distribution                         EN-AR-08-005
 Center Consolidation



        APPENDIX B: MICHIGAN METROPLEX DECISION ANALYSIS REPORT

The Board approved the DAR on January 9, 2005. The purpose of the DAR was to
reduce costs, increase operational effectiveness, and improve service. The project
consolidates mail processing operations for ZIP Code areas 480, 483 and portions of
484 and 485 into the new Michigan Metroplex P&DC. After the initial headquarters
functional review, an additional analysis was performed and determined there were
opportunities for increased operational savings. The analysis indicated the Postal
Service could realize significant savings if it moved part of the originating mail
processing for ZIP Code areas 481 and 482 from the Detroit P&DC to the proposed
Michigan Metroplex P&DC.

The Michigan Metroplex P&DC site acquisition, design, and construction included
803,325 square feet in the new facility. The total square footage required to meet the
mail processing requirements on the workroom floor is 527,051 square feet. The Detroit
AMP proposal indicates that Detroit mail processing operations require less than 1
percent of the total workroom floor.

At the time of this report, the Michigan Metroplex P&DC was not fully operational. The
Postal Service began to move operations to the Metroplex P&DC at the end of
May 2008. Click the illustrations below to see maps of consolidated facilities,
Illustration A (existing) and Illustration B (proposed).

Since mail processing operations have not been moved, the current Royal Oak P&DC
facilities listed in the DAR were used as the gaining facility’s baseline for the Detroit
AMP proposal. Workhour adjustments were made to the current Royal Oak P&DC
MODS data to account for the projected workhour reductions in the DAR, which allow
for anticipated efficiency gains at the new facility.




                                                13
Detroit, Michigan Processing and Distribution                                              EN-AR-08-005
 Center Consolidation



                            APPENDIX C: SAVINGS MISSTATEMENTS

We identified an approximate $3.1 million overstatement in proposed annual savings,
decreasing the total annual savings from $4.3 million to $1.2 million. Discrepancies
occurred in costs associated with workhours, EAS personnel, and transportation, as
well as annual associated costs. Figure 3 summarizes the cost/savings misstatements.

                          Figure 3: Summary of Adjusted Total Annual Savings

                                                                                             Revised
                                                      AMP (Cost) /           OIG
                                                                                             (Cost) /
                     Savings Category                  Savings           Adjustments
                                                                                             Savings
            Workhours                                    $5,848,554       ($2,879,902)      $2,968,652
            EAS Personnel                                    326,378         (159,650)          166,728
            Transportation                               (2,157,671)          (20,606)      (2,178,277)
            Annual Associated                                277,285                 0          277,285
            Total Annual Savings                         $4,294,546       ($3,060,158)      $1,234,388

            One-time Associated Savings                   ($433,670)          $678,393         $244,723

39 U.S.C. § 403 (a) states, “The Postal Service shall plan, develop, promote, and
provide adequate and efficient postal services . . .” Further, Handbook PO-408 sets
forth guidelines for consolidating mail processing operations.13

Accurate and complete AMP data and a rigorous review process are important for
supporting management decisions, ensuring management accountability, and
strengthening stakeholder confidence in the consolidation processes.

Workhours

Our analysis identified an overstatement of approximately $2.9 million in workhour
savings, reducing the estimated workhour savings from $5.8 million to approximately
$3.0 million.

The overstatement occurred because management used an overly optimistic absorption
rate.14 Specifically, management benchmarked data from the Saturday consolidation
(Detroit P&DC to the Royal Oak P&DC). The Saturday study resulted in an 88.4
percent absorption rate in workhours. According to management, the absorption rate
seemed high and was adjusted to 56 percent based on management’s experience.


13
   The handbook provides a framework for consolidating operations in the mail processing network. It states that
consolidations should improve operational efficiency and/or service, make optimum use of available resources, and
ensure management’s accountability for consolidating operations.
14
   An absorption rate represents the opportunity to achieve efficiency gains associated with a consolidation of mail
processing operations.



                                                          14
Detroit, Michigan Processing and Distribution                                              EN-AR-08-005
 Center Consolidation


Management used the 56 percent absorption rate in the reduction of projected
workhours for all affected operations.

Several factors contributed to the discrepancies. Saturday mail processing productivity
is not necessarily representative of a normal work week and using the same absorption
rate for all operations does not recognize the variability in each operation, including
efficiency losses that may occur in some operations. Additionally, to test the
reasonableness of management’s proposed absorption rate, we benchmarked the
Detroit AMP proposed productivity against other facilities in two similar BPI groups. The
productivity management proposed in the Detroit AMP was higher than the top three
facilities in the BPI groups used as a comparison. xx xxxxx xxx xxxxxxxx xx xxx xxxxxx
xxxxxxxxxxxx xx xxx xxxxxxx xxxxxxxx xxxxxx xxx xxxxx xxxxxxxx xx xxxxxxx xxx xxx
xxxxxxxxx xx xxxxxxxxx xxxxx xx xxx xxx.15

The workhour overstatement affects the number of craft personnel needed at the
gaining facility. Based on our analysis, the gaining facility (Michigan Metroplex P&DC)
would need an additional 42 craft employees16 to maintain the same productivity
anticipated for the Michigan Metroplex before the Detroit consolidation.

EAS Personnel

Management underestimated staffing by two EAS personnel because of the workhour
discrepancies noted above. The increase in craft complement increases the proposed
EAS staffing by two additional positions17 in the Michigan Metroplex. Therefore, EAS
savings were overstated by approximately $160,000.

Additionally, management calculated EAS complement changes from the "authorized"
positions and not the current “on-rolls.” Management stated this methodology more
accurately reflected the effort needed to perform the work. Additionally, they stated
some craft employees are acting in EAS positions to fill vacancies, which is not reflected
in the “on-rolls” complement list. Further, management stated that if required to use
“on-rolls” they would adjust the proposed number of employees to reflect the same net
difference. This discrepancy occurred because AMP guidelines, at the time of the AMP
proposal, were unclear. However, the revised Handbook PO-408 addresses this issue
and requires using “on-rolls” personnel.

If corrected, there will be no net impact other than the adjustment for the two additional
EAS personnel due to the workhour adjustment. However, if not corrected, there could
be a significant understatement in EAS costs, potentially affecting the PIR process.




15
   xxx xxxxxxxxx xx xxxxxxxxx xxxxxxxxxx xx xxx xxx xxxxxxx xx xx xxxxxxxxx xxxxxxxxx.
16
   An additional 74,161 workhours divided by the employee utilization rate of 1,759 hours per year.
17
   xxx xxxx xxx xxxxx xx xxx xxxxxxxxxx xx xxxxx xxxxxxxxxx.



                                                         15
Detroit, Michigan Processing and Distribution                                        EN-AR-08-005
 Center Consolidation



                                         Figure 5: Summary of EAS Analysis

                                                                           Michigan         Combined
                                                     Detroit P&DC         Metro P&DC         Totals
      A Current (on-rolls)                                 113                 79               192
      B Authorized                                         149                 86              235
      C Proposed                                           142                 91*             233*
      D AMP Impact (B-C)                                    -7                 +5*              -2*
      E OIG Impact
        (using on-rolls)                                   +29                 +12              +41
        (A-C)
        AMP Savings                                    $565,853            ($399,125)        $166,728
*Note: AMP proposed complement and savings adjusted to include the two additional EAS personnel required as a
result of the workhour adjustment.

Transportation

Highway Contract Routes (HCR) – Management understated transportation costs for
the Detroit AMP proposal by approximately $16 million because they did not include
required annual fuel cost. However, because they understated both current and
proposed costs, there was no net impact to the AMP savings. Specifically, 52 of the 57
HCR contracts did not include the required annual fuel cost in accordance with AMP
guidelines. This condition occurred because coordination was insufficient among Postal
Service Headquarters and area, district, and Detroit P&DC officials regarding what
guidelines to use in developing the Detroit AMP proposal. Detroit P&DC officials used
the current Handbook PO-408 for Worksheet 9. However, Great Lakes Area personnel
stated that, during subsequent discussions with Postal Service Headquarters, they were
verbally instructed to complete the transportation section using revised AMP
Worksheets 9 and 9A. In addition, the Great Lakes Area has not completed their
training on the revised Handbook PO-408 and was not clear on which cost to use.

Postal Vehicle Service (PVS) – Management understated AMP transportation savings
by $20,606. Our analysis concluded the total annual PVS transportation costs for both
losing and gaining facilities were $196,307 instead of $175,701 identified in the Detroit
AMP. xxxx xxxxxxxxx xxxxxxxx xxxxxxx xxxxx xxx xxxxxxxxxxxxxx xxxxxxxxx xxxxx
xxx xxxxxxx xxxxxxxx xxxxxxxxxx xxxxxxxxxxxxx xxx xxx xxxxxxxx xxxx xx xxxxxx xxxx
xx xxxxxxxxx xxx xxxxxxxxxxxxxx xxxxx. As a result, we recalculated the PVS cost for
the gaining facility using the supporting documentation provided by district officials,
which included a rate of xxxxxx. Postal Service officials calculated the gaining facility
(Michigan Metroplex) costs using the rate per hour, instead of the rate per mile used for
the losing facility. In addition, inadequate supporting source documentation made it
difficult to follow the methodology and establish an effective audit trail to validate all
transportation costs associated with the AMP proposal.




                                                      16
Detroit, Michigan Processing and Distribution                                         EN-AR-08-005
 Center Consolidation


One-Time Associated Cost

The Detroit AMP did not include the cost savings associated with the closure of the
Detroit Annex (a leased facility). During our review, management furnished a feasibility
drawing depicting the Detroit P&DC after the Detroit AMP consolidation that showed the
incorporation of the Detroit Annex. According to management they did not include the
savings because they did not consider the Annex closure a part of the AMP initiative.
Also, they stated the decision to close the Annex was made after the AMP proposal was
submitted to headquarters and that the Annex closure would be pursued whether the
Detroit AMP was approved or not.18 The lease has approximately 3 years remaining,
expiring in December 2011. The annual lease savings is approximately $678,393,
however, the savings would be reduced by several factors including: the cost to move
the equipment (approximately $78,000), early termination fees, and the requirement to
return the building to its original state.




18
 Revised Handbook PO-408 (March 2008) states that other significant cost-saving programs occurring during the
AMP process, but not associated with the consolidation, must be noted in the Summary Narrative.



                                                      17
Detroit, Michigan Processing and Distribution                                                 EN-AR-08-005
 Center Consolidation



                                       APPENDIX D: OTHER ISSUES

Service Downgrade

During our initial fieldwork, we noted the SSD showed a service standard downgrade
that was not reported on the AMP proposal. Handbook PO-408 states the executive
summary should include impacts on service commitments. The downgrade was for
FCM service standards from 2-day to 3-day, for ZIP Code 482. During our discussions
with management about this issue, they indicated that although a downgrade had been
requested, a subsequent review by management concluded that the service downgrade
was not needed and the original 2-day service standard was retained in the SSD. We
validated that the noted service downgrade was no longer showing in the SSD. See
Illustration C for the AMP timeline.

Communication Process

Stakeholders expressed concerns with the communication process for the Detroit AMP.
Concerns include which stakeholders were notified, when stakeholders were notified,
and the information shared with stakeholders. We plan to examine stakeholder
communications in a subsequent review.

Legislative Restrictions

Report language from the FY 2008 Omnibus Spending Bill19 directs the Postal Service
to delay the Detroit AMP consolidation, along with several others, until GAO reports
back to the Appropriations Committee. The Appropriations Committee has questioned
the efficacy of proceeding with AMP consolidations if management is making decisions
with inadequate data analysis and stakeholder input when considering potential AMP
consolidations.

Delays in AMP consolidation implementation impact the Postal Service’s efforts to
streamline the network infrastructure and projected cost savings. The Detroit AMP
consolidation delay could possibly defer mail processing operation efficiency gains and
potential cost savings of approximately $1.2 million annually.




19
  An omnibus spending bill sets the budget of many departments of the U.S. government at once. When Congress
does not or cannot produce separate bills in a timely fashion (by beginning of the fiscal year), it will roll many of the
separate appropriations bills into one omnibus spending bill.



                                                            18
Detroit, Michigan Processing and Distribution                              EN-AR-08-005
 Center Consolidation



                                                APPENDIX E: RISK FACTORS




                                                        Redacted




                                                           19
Detroit, Michigan Processing and Distribution                  EN-AR-08-005
 Center Consolidation



               ILLUSTRATION A. MAP OF GREAT LAKES AREA (Existing)




                                                20
Detroit, Michigan Processing and Distribution                EN-AR-08-005
 Center Consolidation



              ILLUSTRATION B. MAP OF GREAT LAKES AREA (Proposed)




                                                21
Detroit, Michigan Processing and Distribution                                                                                                                                                                                                        EN-AR-08-005
 Center Consolidation



                                                                    ILLUSTRATION C: AREA MAIL PROCESSING TIMELINE

                                                                                        Detroit, MI and Michigan Metroplex P&DCs
                                                                                                        2007 - 2008
                                                                                         Area Mail Processing (AMP) and Service
                                                                                                 Standards Directory (SSD)
                                                                                                         Timeline




AMP                                                                               AMP
                                                                               Proposal             Revised AMP
                                                                                                                                                                                                                                               AMP
                                                                             Resubmitted              Package to
                                                                             with Changes                                                                                                                                          Postal
           Detroit AMP                                                                                 Area for                                                                         Revised AMP                                Service
                                                                             (data May 1,           approval (data         Public Input Start Detroit                                  Package Signed
             revised to                                                                                                                                                                                                            begins
                                                                              2006 - April           July 1, 2006-          Process     AMP audit -                                     By Area Vice
           include new                                                                                                                                                                                                           moving into
                                                                               30, 2007)            June 30,2007)           meeting         OIG                                           President
           facility name                                                                                                                                                                                                        the Michigan
                                                                                 July 1              September 5           October 23 October 29                                         January 15
            January 24                                                                                                                                                                                                           Metroplex
                                                                                                                                                                                                                                  May 26




          Jan-07           Feb   Mar                Apr   May          Jun        Jul            Aug             Sep                Oct                    Nov               Dec           Jan-08             Feb   Mar   Apr   May




                                    March 28                                              August 2                      October 1          November 2       November 7             January 1      January 29
                                                               June 1
                                     Service                                               Service                      Approval            OIG Briefs      Management            IG Reviewed      OIG Pulls
                                                            Review Service
                                    Standard                                              Standard                       Service          Management -      Provides OIG            Approved        Service
                                                              upgrades/
                                     Change                                                Change                       Standard            Service D         Copies of        Service Standard    Standard
                                                             downgrades
                                     Request                                            Request from                 Downgrades for       owngrade 482         Service         Change Request      Exception
                                                               with HQ
                                  Submitted By                                          Great Lakes                  Originating Zips   (2 days to 125 Mid   Downgrade         Report for 1-1-07    Report.
                                 Detroit District                                           Area                                                                               thru 1-29-08. 480 Destinating Zip
SSD                              for Destination                                         (480 Royal
                                                                                                                      480 Royal Oak
                                                                                                                     & 481 Detroit to
                                                                                                                                          Hudson) to 480
                                                                                                                                        (3 days to 125 Mid
                                                                                                                                                           Request Letters
                                                                                                                                                                                 Royal Oak and 125 Mid Hudson
                                                                                                                                                                                                  No Longer
                                                                                                                                                                                                                                               SSD
                                  Zip 125 Mid-                                           Oak & 481                    Destinating Zip   Hudson) - does not                        481 . Detroit
                                  Hudson, NY                                            Detroit to 125               125 Mid Hudson       appear in AMP                         Upgraded back      Showing
                                   (originating                                         Mid-Hudson                                                                             to 2 days FCM to
                                     ZIPs not                                               NY)                                                                                 125 Mid Hudson
                                    specified)




                                                                                                                                                    22
Detroit, Michigan Processing and Distribution                                         EN-AR-08-005
 Center Consolidation



                          ILLUSTRATION D: PLANT PERFORMANCE

                                Plant Stratification Group Ranking - Group 1 Plants
                                             July 1, 2006 - June 30, 2007
                                          *Detroit P&DC in Red Highlight*

  120.0%



  100.0%



   80.0%



   60.0%



   40.0%



   20.0%



    0.0%




                               Plant Stratification Group Ranking - Group 2 Plants
                                             July 1, 2006 - June 30, 2007
                                        *Royal Oak P&DC in Red Highlight*

 100.0%


  90.0%


  80.0%


  70.0%


  60.0%


  50.0%


  40.0%


  30.0%


  20.0%


  10.0%


  0.0%




                                                            23
Detroit, Michigan Processing and Distribution            EN-AR-08-005
 Center Consolidation

                         APPENDIX F. MANAGEMENT’S COMMENTS




                                                24
Detroit, Michigan Processing and Distribution        EN-AR-08-005
 Center Consolidation




                                                25
Detroit, Michigan Processing and Distribution        EN-AR-08-005
 Center Consolidation




                                                26
